<html>
<title> - POLICIES AFFECTING HIGH-TECH GROWTH AND FEDERAL ADOPTION OF INDUSTRY BEST PRACTICES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 POLICIES AFFECTING HIGH-TECH GROWTH AND FEDERAL ADOPTION OF INDUSTRY 
                             BEST PRACTICES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2011

                               __________

                           Serial No. 112-27

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
68-044                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b5c4b547b584e484f535e574b1558545615">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 18, 2011...................................     1
Statement of:
    Quinlan, Patrick, chief executive officer, Rivet Software; 
      Milo Medin, vice president for access services, Google, 
      Inc.; and Stuart McKee, national technology officer, U.S. 
      Public Sector, Microsoft Corp..............................     7
        McKee, Stuart............................................    24
        Medin, Milo..............................................    16
        Quinlan, Patrick.........................................     7
Letters, statements, etc., submitted for the record by:
    Issa, Chairman Darrell E., a Representative in Congress from 
      the State of California, prepared statement of.............     3
    McKee, Stuart, national technology officer, U.S. Public 
      Sector, Microsoft Corp., prepared statement of.............    27
    Medin, Milo, vice president for access services, Google, 
      Inc., prepared statement of................................    18
    Quinlan, Patrick, chief executive officer, Rivet Software, 
      prepared statement of......................................     9


 POLICIES AFFECTING HIGH-TECH GROWTH AND FEDERAL ADOPTION OF INDUSTRY 
                             BEST PRACTICES

                              ----------                              


                         MONDAY, APRIL 18, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                      San Jose, CA.
    The committee met, pursuant to notice, at 9 a.m., at the 
San Jose City Hall and Mexican Heritage Plaza, 200 E. Santa 
Clara Street, Suite T116a, San Jose, CA, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa and Chaffetz.
    Staff present: John Cuaderes, deputy staff director; Linda 
Good, chief clerk; Hudson T. Hollister, counsel; Seamus Kraft, 
director of digital strategy/press secretary; Mark D. Marin, 
senior professional staff member; and Brian Quinn, minority 
counsel.
    Chairman Issa. The committee will come to order.
    The Oversight and Government Reform Committee's mission, we 
exist to secure two fundamental principles. First, Americans 
have a right to know that money Washington takes from them is 
well spent. And second, Americans deserve an efficient, 
effective government that works for them. Our duty on the 
Oversight and Government Reform Committee is to protect these 
rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know that they 
get from their government, work that is tirelessly in partner--
I'm doing well. They have a right to know that they get from 
their--what they get from their government. We will work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring general reform to the 
bureaucracy.
    I'd like to begin by apologizing for that opening 
statement.
    No. I would like to thank the city council for making this 
wonderful room available to us. I also appreciate the witnesses 
for being here. Field hearings are a way to allow us to come to 
you in a setting of your choosing. Additionally, I think back 
in Washington we often talk about the Silicon Valley; we don't 
think about it. So for the Members and staff that will be here 
in the next few days, touring here and the rest of California 
as part of a series of field hearings, we hope that we will see 
Members get informed, both by your testimony and by being in a 
community where innovation is not marked by the size of your 
handbag, your Gucci shoes, your lobby effort, but, in fact, by 
your willingness to innovate, to bring people together to find 
new and exciting products often intangible and unthought of 
before they were invented here.
    It wasn't long ago that the nation's research innovation 
and high-tech industries were unequaled. That is no more. As 
the debate shifts to how to repatriate dollars from around the 
world, every day we're reminded that revenues outside the 
United States are continuing to pile up looking for 
opportunities and often finding them to invest in foreign 
lands.
    Who are we to blame? Five years ago Bill Gates and many 
others warned of the negative impact of strict caps on H-1B 
visas for technology workers in the United States with the 
competitive environment around the world, if you can't get your 
worker here, you'll go to where your worker is. Just last 
August, former HP CEO Carly Fiorina said that it's time to 
start acknowledging the reality that companies go where they're 
welcome, explaining that U.S. Federal policies such as high 
corporate tax rates and the broken immigration system, the 
failure to have a permanent R&D tax credit for many years 
pushed jobs overseas instead of making U.S. companies 
competitive against their international rivals.
    At Intel, Paul Otellini said, I can tell you definitely 
that it cost one billion dollars more to build a factory here 
and equipment than it cost outside the United States, and I can 
tell you my stockholders are not going to ask or order me to 
spend one billion more before attributing higher labor cost.
    America's cost of energy continues to be a concern to Intel 
and other companies, along with other burdens and delays. I've 
heard these concerns personally here in December and on other 
trips to the Valley, and in my home in San Diego, the same is 
true. Telecommunications jobs once thought to be based out of 
San Diego as a home of innovation, little by little are finding 
homes in other countries with smart and innovative equal--
innovating the next generation, many of those new jobs, of 
course, will be in China.
    On top of that, Federal agencies continue to have 
inoperable data bases, data bases that cannot, in fact, be 
easily searched. It's not that we don't spend money on them; we 
spend a fortune on them. The real question is, will the Federal 
bureaucracy come to Silicon Valley, ask what it can get from 
them, so that it can start acting more like a cloud based 
Google search than, in fact, the often pretty Web site that 
deliver little or no information, have broken links and seldom 
are searchable in a mass way.
    This committee continues to--to explore waste, fraud and 
abuse in government, but we also believe that the greatest 
waste is, in fact, the job that does not get created in 
America, the opportunity does not occur. That would be a bigger 
impact on America than the undeniable waste in the Federal 
bureaucracy. With that, I recognize the gentleman from Utah for 
his opening statement.
    [The prepared statement of Chairman Darrell E. Issa 
follows:]

[GRAPHIC] [TIFF OMITTED] T8044.001

[GRAPHIC] [TIFF OMITTED] T8044.002

    Mr. Chaffetz. Thank you, Chairman, and thank you for being 
here. It's a pleasure and honor for me to be here. I was 
actually born in Los Gatos. I grew up in part in Saratoga. I 
remember when Norman Mineta was the mayor, for goodness sakes. 
So I only lived here until I was about 7 years old, but 
nevertheless, this is home. This is where it all started for 
me. And following my dad, if he kept that home in Saratoga and 
those rolling hills overlooking the vineyard, which are now 
scattered with these multimillion dollar homes, but 
nevertheless, and that beach house in Santa Cruz, but that's 
another discussion.
    Listen, I----
    Mr. Issa. By the way, there are plenty of opportunities to 
run right here in this district.
    Mr. Chaffetz. I kind of like the conservative voting power 
of Utah's Third Congressional District, but nevertheless, I 
fundamentally believe that our Federal Government right now is 
borrowing, taxing and spending too much money. It's startling 
to me that 25 cents out of every dollar spent in this economy 
is spent by the Federal Government. That is unsustainable, it 
is unacceptable and it is far too much.
    We need to recognize that it is the private sector that 
creates jobs. The Federal Government doesn't create jobs. The 
Federal Government is there to--there's a proper role for the 
Federal Government. It is there to provide safety and security 
and do things that are uniquely government. But if we're going 
to grow our economy, if we're going to continue to be the 
world's military and economic superpower into the future, we're 
going to have to change the way we do business, and we're going 
to have to recognize that until we create an atmosphere that is 
conducive to the growth of jobs, we will continue to struggle. 
And the tech sector has obviously been wildly successful, 
particularly in this--in this area.
    We need that to expand. We need that to grow. We need to 
remember that manufacturing is good. That we actually have to 
make and develop things. And the United States is unique in 
that it has such a talent and pension for creativity and for 
developing things, and there's nothing more proud than some of 
the companies that are represented here that have become global 
brand names in a very short amount time.
    Nevertheless, I am worried about the Federal Government and 
its policies moving forward. How do we propel and make sure 
that these companies grow in their strength in everything from 
patent reform, to cloud computing, to cyber security, to 
standardizing of data, to shared services. These are all things 
that not only affect how the Federal Government will operate, 
but will also have a dramatic affect on how business around the 
globe will operate.
    And so I think one of the--one of the core challenges and I 
hope we have a discussion today, Chairman, about is this--this 
idea of the Federal Government and its unilateral rulemaking 
authority through the executive branch, as opposed to going 
through the congressional--through the process of the U.S. 
Congress.
    Mr. Chairman, if you recall, when the House Republicans are 
gathered, George Will, one of my favorites, he came and spoke 
to us. And he said his--his perception was the challenge before 
the 112th Congress was whether or not Congress was going to 
stand up for itself. Were we going to allow the president and 
the executive branch--and I'm not trying to be overly partisan 
here, it certainly was true in other administrations, is the 
executive branch going to unilaterally be able to--to use its 
rulemaking authority to have the effective law, or, is it going 
to be the Congressional Record that will be most pertinent. We 
have to go through a deliberative process of openness and 
transparency, bipartisan in the nature--the way Congress is 
configurated to actually develop those rules and put them into 
law. And there is a difference between rules and the law. And 
yet, I feel like in sometimes not only in the tech sector, but 
also in everything from the ag sector, to the EPA, to the FDA, 
as we were talking about earlier, this is obviously--all 
Americans are affected by what is done through this unilateral 
rulemaking authority without the public's input.
    So nevertheless, a long-winded way of saying, the tech 
sector is one of the things this country can be proud of. It is 
providing real, tangible jobs. It will provide the income that 
is needed not only for the Federal Government so it can offer 
its services, but provide the type of growth that will allow us 
to continue to be the world's economic and military superpower.
    And so that's the notion of the hearing today is to 
understand how we can help by getting out of the way. What are 
the impediments that the Federal Government is putting up so 
that you can continue to grow and expand in the tech sector.
    And then, how do we learn in the Federal Government, you 
have one department that just got off DOS, for goodness sake. 
And so we're----
    Mr. Issa. Which version is it?
    Mr. Chaffetz. 3.3, an all green screen.
    And so nevertheless, we appreciate your participation today 
and look forward to a healthy dialog.
    Mr. Issa. I thank the gentleman.
    All Members will have 7 days to submit opening statements 
and extraneous material for the record.
    The chair now recognizes our panel of witnesses. Mr. 
Patrick Quinlan is chief executive officer of Rivet Software. 
Mr. Milo Medin is vice president for access services at Google. 
And Mr. Stuart McKee is the national technology officer for 
Microsoft's U.S. public sector organization.
    Pursuant to the rules of the committee, all witnesses will 
be sworn in. Would you please rise to take the oath.
    Please raise your right hands.
    [Witnesses sworn.]
    Mr. Issa. Let the record should reflect that all witnesses 
answered in the affirmative and please be seated.
    Now, the next part of the script, I actually get to go off 
of.
    Although your time is limited and we want to be respectful 
of it, and we have other appointments for the day, these are 
comparatively informal opportunities to express back and forth 
a dialog. So I'd--I'd like to have each of you make an opening 
statement, approximately 5 minutes. No one's going to cut you 
off, particularly if you're speaking rather than reading from a 
script, that will be placed in the record in its entirety, and 
then we'll begin alternating with a group of questions.
    And, Brian, if you have specific questions on behalf of the 
minority, we're certainly going to include you in the 
questioning, again, allowed by the rules but not often done 
back in Washington.
    And with that, Mr. Quinlan.

 STATEMENTS OF PATRICK QUINLAN, CHIEF EXECUTIVE OFFICER, RIVET 
   SOFTWARE; MILO MEDIN, VICE PRESIDENT FOR ACCESS SERVICES, 
 GOOGLE, INC.; AND STUART MCKEE, NATIONAL TECHNOLOGY OFFICER, 
               U.S. PUBLIC SECTOR, MICROSOFT CORP

                  STATEMENT OF PATRICK QUINLAN

    Mr. Quinlan. Thank you very much, Congressman Issa, 
Congressman Chaffetz, and distinguished members of the 
committee.
    Mr. Issa. OK, when I botch all of the names, and I do it 
all the time, I apologize, but Mr. Chaffetz.
    Mr. Quinlan. Mr. Chaffetz, I apologize.
    Mr. Issa. He has a record for the fact that the previous 
chairman actually never got it right once. Thank you.
    Mr. Quinlan. Well, Mr. Chaffetz, as a resident of Colorado, 
I certainly don't mean to demean my neighbor in Utah, much less 
point out that we actually have better snow than the fine state 
of Utah.
    Mr. Chaffetz. Reclaiming my time.
    Mr. Quinlan. My name is Patrick Quinlan. I'm the CEO of 
Rivet Software. We have 570 talented members of our team, which 
has been a tremendous growth. A year ago we had less than 50.
    We currently serve over 1,250 of the top public companies 
in the United States, including Microsoft, sitting here to my 
left.
    We are very passionate about data transparency, and what 
the power of information can do in allowing Main Street to get 
the same access to information as Wall Street gets today.
    You asked how Federal regulations and policies impede the 
creation of high-tech jobs and how government agencies can 
instead leverage new technology to achieve greater 
efficiencies, reduce waste, fraud, abuse and mismanagement of 
Federal agencies. Today the Federal Government is constraining 
innovation, wasting funds and obscuring information all in the 
name of data transparency.
    Data transparency initiatives such as data.gov, 
recovery.org and USAspending.gov gives the impression that the 
government has made data available and accessible.
    The U.S. Government has funded these tools to provide 
answers to the public questions, but they don't suffice. In 
fact, they've created a guise that constrains innovation, 
wastes money and resources, and actually reduces transparency. 
Until data reporting standards are set and the public has 
access to the underlying data, the data that really matters, it 
remains nearly impossible to provide answers to the public's 
questions.
    But we don't have to rely on these government programs. 
Private companies can compete to provide data in a standardized 
format delivering increasingly high value to the public. A new 
self-funded industry will be formed, high-tech jobs will be 
created and true transparency and accountability will be 
achieved.
    Setting standards leads to lower cost, increased sharing 
and enhanced communication. Sometimes standards evolve 
gradually. Let's think about Betamax and VHS. But this takes 
times and increases cost and waste. Mandated standards can be 
more effective and efficient. Take, for example, the recent SEC 
mandate around XBRL. XBRL is eXtensible Business Reporting 
Language. A language that makes document contact machine 
readable and, therefore, instantly available for research. The 
FCC's visionary mandate for XBRL has so far created at least 15 
companies and 1,500 jobs.
    At an average salary of $68,000 a year, that means over 
$100 million in salaries and approximately $30 million in taxes 
per year.
    What can the Federal Government do to create true 
transparency? First, take a look at the SEC for best practices. 
They have set and enforced a standard that developed a self-
funding industry. Our government must find more opportunities 
to mandate data standards.
    Use of standardized data will let the government manage by 
exception, focusing on the outliers. Imagine asking for every 
purchase order exceeding budget by 20 percent and having the 
answer instantly. With this kind of data, we'll no longer 
attempt to predict questions. Instead, we can enable innovation 
and let the entrepreneurial spirit that drives Rivet, as well 
as so many of the other companies in my industry, through their 
growth.
    Let's consider GPS for a second, which was originally 
created for military use. And look at the--and look at the many 
applications that have been created by leveraging this data. 
How many businesses have been created? How many jobs? How much 
revenue? How many tax dollars have been returned to the 
government as a result of industry's access to GPS? In this 
time of massive deficits, let's stop dealing with fuzzy numbers 
and start tracking where and how our money is being spent.
    With access to standardized and structured data, we can use 
facts, not spin, to make decisions and determine if our money 
is being wasted.
    In conclusion, please trust us to work with you and the 
Commission to bring the benefits of true data transparency to 
the American people. If we do it right, we will start a whole 
new industry, creating tens of thousands of high-quality, high-
paying jobs, while answering the need to reduce spending and 
waste in our government at the same time.
    On behalf of my company in Denver, the thousands employed 
by our industry and the millions of Americans we serve, I thank 
you for the opportunity to be a part of this discussion.
    [The prepared statement of Mr. Quinlan follows:]

    [GRAPHIC] [TIFF OMITTED] T8044.003
    
    [GRAPHIC] [TIFF OMITTED] T8044.004
    
    [GRAPHIC] [TIFF OMITTED] T8044.005
    
    [GRAPHIC] [TIFF OMITTED] T8044.006
    
    [GRAPHIC] [TIFF OMITTED] T8044.007
    
    [GRAPHIC] [TIFF OMITTED] T8044.008
    
    [GRAPHIC] [TIFF OMITTED] T8044.009
    
    Mr. Issa. Thank you, sir.
    Mr. Medin.

                    STATEMENT OF MILO MEDIN

    Mr. Medin. ``Medin'' is right. Thank you, Chairman Issa and 
Chaffetz, for this opportunity to discuss the ways in which 
government regulation can sometimes hold back innovation and 
investment.
    My name is Milo Medin. I'm Google's vice president for 
access services. In that role, one of the things I'm 
responsible for is leading the Google Fiber team in the build-
out of an ultra high-speed network in Kansas City, Kansas.
    Prior to joining Google, I cofounded M2Z Networks in 2005, 
and served as its chairman and chief technology officer. Before 
then, I cofounded At Home Corp. in 1995, and served in a number 
of senior positions there.
    In my view, there's a demonstrated need for the Federal 
Government to revisit some of its foundational processes and 
procedures to ensure that we are creating an environment that 
is friendly to both investment and innovation, and the 
corresponding economic growth and job creation. At Google we 
also see a need to modernize government by updating our patent 
system and by taking other steps to ensure that companies 
continue to invest and create jobs.
    I'll start, though, with some of the experiences I've had 
and the interplay between business investment and regulation. 
Google Fiber recently announced that we will work with Kansas 
City, Kansas to deploy a large-scale, ultra high-speed network 
at speeds up to one gigabit a second. Our goal in Kansas City 
is to provide, at a competitive price, Internet access that is 
more than 100 times faster than what most Americans have 
available to them today. But my experience deciding where to 
make our investment highlighted for me just how regulation can 
sometimes get in the way of innovation. My written testimony 
discusses a number of areas, but in my statement today I'll 
talk about rights of way.
    Governments across the country control access to rights of 
way that private companies need in order to lay fiber, and 
government regulation of these rights of way often resulted in 
unreasonable fees, anti-investment terms and conditions, and 
long and unpredictable build-out timeframes. The expense and 
complexity of obtaining access to public rights of way in many 
jurisdictions increases the cost and slows the pace of 
broadband network investment and deployment.
    Reducing red tape, overly restrictive regulations and delay 
associated with access to rights of way would make a big 
difference. Luckily, some local governments get it right, and 
are good examples for others to follow. In fact, part of the 
reason we selected Kansas City for the Google Fiber project was 
because of the City's leadership and the--and their utility 
move with efficiency and creativity in working with us to 
create an agreement.
    I'll step back a little bit from Google Fiber to discuss my 
views on the impact of regulation innovating more broadly. 
Specifically, I'll touch about some regulatory issues that 
concern me personally, that relate to the FCC and government in 
general.
    First off, the government generally must strive to be more 
efficient in its decisionmaking processes and recognize that 
time is in many ways the most valuable thing we invest here--we 
invest in Silicon Valley.
    Starting a regulatory process that may affect specific 
sectors in a market, either in a positive or negative way, 
creates ambiguity that can often freeze investment. It's 
important that such processes are optimized for speed and not--
so that the ambiguity involved can be removed as quickly as 
possible.
    I once heard Colin Powell say that all good decisions are 
made between 40 percent and 70 percent of information. He said 
if you have less than 40 percent, you really don't know what 
you're doing. But if you have more than 70 percent, you've 
waited too long.
    If--Silicon Valley companies like Google fully embrace this 
sort of thinking, and it's essential to our ability to deliver 
innovative products that compete worldwide. But investment 
disincentives are created when we have to wait on government 
processes that are not time bound, and materially impact what 
products we can develop.
    Agencies like the FCC all too often open up rulemaking 
dockets soliciting formal comments, receive a flood of 
documents from interested parties and then fail to act for 
months or years, if they act at all.
    The result is uncertainty, which is bad for business, bad 
for innovation and bad for investment.
    Fixing the patent system is critical to the technology 
industry. And while I have not had as many patents issued to me 
as you have, Pat, issued to you, I do have a few.
    And probably like you, I have seen the patent process work 
well, and have seen it work not so well.
    Simply stated, the American technology industry success 
depends on a functioning patent system that produces and 
protects quality of patents. In recent years the system's 
become difficult to navigate, frivolous lawsuits built around 
patents of dubious validity and targeting the profits of true 
invention. Companies often settle rather than risk losing 
millions of dollars in front of a jury, and consumers' 
innovation and the economy suffer for it.
    I know that you understand this, Mr. Chairman, and want to 
thank you for your support in--of a supplemental examination 
amendment issued by Chairman Goodlatte during the markup last 
week.
    I'll close with this, if regulations create disincentives 
for large, well-established companies like Google, just imagine 
the impact on small- and medium-sized companies who include the 
next generation of entrepreneurs who are just getting starting.
    Thank you, and I look forward to working with you.
    [The prepared statement of Mr. Medin follows:]

    [GRAPHIC] [TIFF OMITTED] T8044.010
    
    [GRAPHIC] [TIFF OMITTED] T8044.011
    
    [GRAPHIC] [TIFF OMITTED] T8044.012
    
    [GRAPHIC] [TIFF OMITTED] T8044.013
    
    [GRAPHIC] [TIFF OMITTED] T8044.014
    
    [GRAPHIC] [TIFF OMITTED] T8044.015
    
    Chairman Issa. Thank you. You're more up-to-date probably 
than most of my colleagues in Congress. Let's just hope that 
becomes law this time.
    Interesting that you quoted Colin Powell and not Michael 
Powell. Hopefully he lived up to his father's 40/70 during his 
time this year.
    Mr. Medin. Indeed.
    Chairman Issa. Mr. McKee.

                   STATEMENT OF STUART MCKEE

    Mr. McKee. Thank you so much. Thank you, Congressman 
Chaffetz and the distinguished members of the panel. I 
appreciate the opportunity to testify today on behalf of 
Microsoft Corp.
    My name is Stuart McKee, and I'm the national technology 
officer for the U.S. Public Sector business at Microsoft and 
it's a position I've held since 2004. In this role, I do work 
with governments across the country of all sizes on the--on 
working on effective technology policy. We thank the committee 
for convening today's hearing, and at a time when our country 
is facing significant economic challenges, it is essential that 
our government take advantage of information technology best 
practices. And it is imperative that we pursue policies that 
support innovation and growth.
    In my testimony I'll focus on four areas in which 
government and industry each has a role to play in driving 
progress for its policies that can promote IT innovation: One, 
information security in the new FedRAMP program. Two, a policy 
framework facilitated responsible move to cloud computing. 
Three, international trade and respect for intellectual 
property. And four, the H-1B visa program.
    Let me begin with the important topic of information 
security and share our experience.
    Microsoft is proud to be a world leader in information 
technology security. At Microsoft, trustworthy computing is a 
core value, and the Microsoft security development life cycle, 
which the company originated and follows, has been widely 
praised, published and practiced by governments and companies 
around the world.
    It is noteworthy Microsoft has security programs and 
trusted partnerships in place specifically for governments, 
including the government security program, which provides 
national governments with information to help evaluate the 
security of Microsoft products.
    Two, the security cooperation program, which focuses on 
computer incident response, attack mitigation and citizen 
outreach. And the U.S. Government configuration baseline, which 
continues to be one of the most successful IT programs in the 
Federal Government to help increase security, reduce cost and 
accelerate the adoption of new technologies.
    Technology continues to advance rapidly and it's no 
surprise that stagnant information security standards and 
protocols are not acceptable. The Office of Management and 
Budget and the General Services Administration are driving a 
new effort known as the Federal Risk and Authorization 
Management Program [FedRAMP], that aims to streamline, 
strengthen and secure cloud implementations across the Federal 
Government. Microsoft welcomes this effort, but we urge 
Congress to oversee the process to ensure that it meets the 
policy objectives established by the Congress in the Federal 
Information Security Management Act of 2002.
    In particular, FedRAMP must be consistent and fair, with a 
process that is repeatable, adaptable and immune from 
preferences or bias for particular vendors or technology. There 
are challenges posed by the program that's proposed that 
warrant deeper discussion. We look forward to working with OMB, 
GSA, Federal agencies and other stakeholders, as related issues 
are considered.
    Moving to my next topic, looking beyond government use of 
cloud computing services and to facilitate a responsible 
transition for all customers. Policy makers should examine 
emerging issues related to privacy and security, including 
those arising outside the United States with regard to 
information that crosses national borders.
    In this context, we urge Congress to consider legislation 
that would, one, require cloud service providers to make their 
privacy and security practices transparent to customers.
    Two, insure rigor and Federal Government procurement of 
cloud services by requiring agencies to evaluate provider 
security practices.
    Three, enhance criminal enforcement of computer crimes, 
such as malicious hacking, and allow cloud providers to bring 
suit against violators directly.
    And four, encourage the Federal Government to engage in 
international efforts to promote consistency and national laws 
governing access to and security of cloud data.
    A comprehensive approach to cloud policy will help ensure 
that consumers and enterprises fully realize the exciting 
benefits of new computing technology.
    That brings me to international trade.
    While IT technology is evolving rapidly, so is the global 
marketplace for U.S. IT products and services. With 95 percent 
of the world's consumers living outside U.S. borders, 
international trade is becoming an increasingly important 
element of a U.S. pro-growth economic and trade strategy. 
Microsoft advocates using existing trade agreements, including 
the World Trade Organization and free trade agreements to 
enforce intellectual property rights, expand trade and ensure 
that the U.S. IT industry remains competitive. Looking to the 
future, we urge one swift passage of the U.S.-Korea, U.S.-
Colombia and U.S.-Panama Free Trade Agreements.
    Two, negotiation of the Trans-Pacific Partnership.
    And three, maintaining a strong focus on stemming IT theft 
outside our borders.
    Microsoft faces a significant challenge in the rampant 
piracy we face in China and emerging markets. In spite of these 
challenges, we strongly believe the best option is to continue 
to advocate for the opening of new markets, and strengthening 
the rules of disciplines of trade, particularly with regard to 
intellectual property rights.
    Finally, I would like to turn briefly to the ongoing debate 
regarding the H-1B visa program that is critical to our 
success.
    Throughout its history, our country has operated on the 
principle that the more brain power we can attract from around 
the world, the more creativity, invention and growth we can 
achieve here at home. There seems to be a reemerging and 
bipartisan consensus that we need to stick to this principle, 
and we welcome it. We strongly support efforts that will 
facilitate the ability of information technology companies like 
Microsoft to attract, hire and retain the best and brightest 
innovators from around the world. If we are not allowed to do 
so, our international competitors will.
    Again, many thanks to you, Chairman Issa, Congressman 
Chaffetz and the committee for the opportunity to testify 
before you today. We look forward to working with you to 
address these issues and confronting the IT industry, and I 
look forward to your questions.
    [The prepared statement of Mr. McKee follows:]

    [GRAPHIC] [TIFF OMITTED] T8044.016
    
    [GRAPHIC] [TIFF OMITTED] T8044.017
    
    [GRAPHIC] [TIFF OMITTED] T8044.018
    
    [GRAPHIC] [TIFF OMITTED] T8044.019
    
    [GRAPHIC] [TIFF OMITTED] T8044.020
    
    [GRAPHIC] [TIFF OMITTED] T8044.021
    
    [GRAPHIC] [TIFF OMITTED] T8044.022
    
    [GRAPHIC] [TIFF OMITTED] T8044.023
    
    [GRAPHIC] [TIFF OMITTED] T8044.024
    
    Chairman Issa. Thank you. As promised, we'll be a little 
less formal, but I'm going to start in reverse order. Isn't the 
H-1B program essentially a failed program because it--it brings 
people in on a temporary nonimmigration status, and the truth 
is, that if these people work out, we really need them to be 
able to remain permanently.
    Mr. McKee. Yes. I assume you're directing the question at 
me in reverse order.
    Chairman Issa. Yes.
    Mr. McKee. Yeah. I can speak specifically for my own 
personal experience in some small startup companies as well as 
the Walt Disney Co. and Microsoft. Attracting the best and 
brightest from around the world has been incredibly important 
to us. And the ability for those individuals to come to the 
United States and create businesses and stay here, to be clear, 
these are people that show up and pay taxes and help us fund 
roads and schools and the other things that contribute to our 
economy significantly.
    So I would agree with that statement, that having people 
stay here is very important.
    Chairman Issa. Mr. Medin, would you say that realistically 
we should be giving a green card application to every graduate 
with a master's or Ph.D. from our major universities, and 
particularly in science and math.
    Mr. Medin. It's funny you ask me that question, I talked 
to----
    Chairman Issa. I didn't invent it. I actually took it from 
Thomas Freedman.
    Mr. Medin. It's a--it's a great idea. I brought it up with 
the House leadership when I was back in Washington in March for 
TechNet Day.
    I think if you--if we are really serious about competition, 
the last thing we want to do is encourage people to come from 
all over the world, learn at the beat of the best--the best--
the best innovation apparatus in the world and then send them 
back to their countries to form companies that compete with 
ours. It is just ridiculous. And coupling it to the boiling the 
ocean problem of comprehensive immigration reform is a big 
problem in our mind.
    Chairman Issa. It's what I came to Congress for 11 years 
ago, but I have to stay until we solve it or until I die.
    Mr. Quinlan, when you talked about XBRL, you're trying to 
put it--quantify it, is XBRL really the success or is it, in 
fact, that you have metadata that is--that allows for data to 
be searched and compared no matter how different it is if it 
uses that format? And I guess my follow-on question is, 
shouldn't this committee look at mandating the kind of--of 
searchable, verifiable, this cell equals this cell, this 
information equals this information, across the government, in 
some cases XBRL is appropriate, in some cases other types of 
tagging would be appropriate. Isn't that fundamentally what the 
SEC is now doing that up until now you had to be basically able 
to take diversion data bases and compare them, and it was an 
inexact science?
    Mr. Quinlan. That is correct. And actually, the example I'd 
like to give on that is the difference between data 
availability and data transparency. They seem very similar, but 
it's a pretty tremendous gulf between the two. Data 
availability, I'll use the past SEC mandate which requires all 
companies to submit their financials in HTML. HTML brings the 
smallest element down to the page. So it essentially makes it 
so that when computers came out and became wildly available 20 
years ago, that individual investors could turn on a computer 
and read their financials by the page online. So that was a--a 
progressive, intelligent mandate 20 years ago.
    What XBRL--and that's data availability, now it's there. 
What data transparency is, is when you allow individual numbers 
and items to be compared across multiple companies, multiple 
industries, and you do that utilizing an open standard that is 
nonproprietary, such as XBRL.
    What the SEC mandate requiring in XBRL now makes it 
possible for individual investors, grandma in Dubuque, Iowa to 
instantaneously access the filings of companies and compare 
that information across industries much the same as the largest 
companies in the United States do today.
    So we fully support the expansion of XBRL into MDNA and AKs 
and all forms of public submissions into the SEC, as well as as 
progressive as HTML was in its original version 20 years ago, 
we actually think that the HTML mandate inhibits the growth of 
XBRL, because there's still this lingering connection to this 
document-based system rather than a data-based system.
    So we encourage, A, the expansion of XBRL throughout both 
the SEC and the Federal Government, as well as the elimination 
of the now obsolete HTML.
    Chairman Issa. Were you disappointed when--when you saw 
Dodd-Frank basically have no data standards at all.
    Mr. Quinlan. Yes, sir.
    Chairman Issa. I was outright disturbed.
    Mr. Quinlan. First of all, we would like to thank you for 
your constantly pushing this issue. You know, I was actually 
given an example on data transparency just this morning. So 
imagine if you have 100,000 buttons and those buttons are in a 
big drawer full of cabinets, and they're all different shapes 
and sizes, what data availability does is it says, here's 26 
questions you can ask about the buttons, which is what data 
is--which is what the recovery.org Web site does today. It 
says, here are the 26 questions you're allowed to ask and here 
are the specific answers to those 26 questions. That's data 
availability. And trust us, all the information is correct and 
it's all about these 100,000 buttons.
    Data transparency is giving everybody full access to those 
buttons, and allowing them to ask the questions that they want. 
And so the disappointment we felt over that being stripped out 
of the Dodd-Frank bill is we were going back to what we got 
with--with recovery.org, where the government gets to ask the 
questions and provide the answers that they think we want, 
rather than our ability as citizens to be able to go in and ask 
those questions.
    So it was a disappointment. And we look forward to your 
leadership in being able to push that forward in the 112th 
Congress.
    Chairman Issa. Thank you. We will continue to push that in 
a bipartisan basis.
    And last question for this round, Mr. Medin, now, Google is 
pretty famous for the Google search. And if I--if I search on 
my name or on Jason Chaffetz's name, I first get a default of a 
whole bunch of stories about him and a whole bunch of Web 
sites, but if I click over on the side and I do image, I get 
mostly Jason's pretty face. Not always, because it appears as 
though that the data tagged to his face is taken out of the 
data of the articles in which it appeared.
    How long before the private sector, Google and Microsoft 
and other innovative companies have the face recognition which 
already exists, tagged so that they can find Jason when he 
occurs in so many different places, tag it and apply metadata 
that not only is who he is, but who he was with, what the 
setting was, so that instead of looking at an article 50 times, 
50 different articles from the same appearance, if I tag--and I 
want that information, I can find out who was at the forum with 
him, what--what occurred, maybe who was there at the committee 
that day and what votes they made.
    And the reason I ask that is, when you have that data, if 
we embrace it, suddenly what we have is the ability to--and I'm 
using face, even though sometimes that will worry people, 
government doesn't know who is cheating us. We don't know that 
a vendor is the same vendor that cheated us twice before. We 
don't know that a--a U-Store-it in Des Moines, Iowa is, in 
fact, not a major hospital that suddenly started billing us 
millions of dollars.
    How long before the industry on its own is going to be able 
to collect, analyze and apply metadata to an awful lot of 
different occurrences that could be leveraged to, quite 
frankly, root out the hundreds of billions of dollars in losses 
to the government?
    Mr. Medin. That's a really fascinating question.
    Chairman Issa. You can expand for the record.
    Mr. Medin. No, I--I think that's a great idea. I am--that's 
a part of Google that I actually can't give you real good 
answers to. But I think we will take that----
    Chairman Issa. Just an Internet quarters is all I wanted to 
ask you.
    Mr. Medin. Yeah, exactly.
    We will--I will have folks come back and give you an answer 
to that question in a couple weeks. We are pretty good at being 
able to put the--put the smart people in front of problems and 
come up with innovative solutions. I'm not--I'm not an expert 
to it--expert on the metadata stuff.
    Chairman Issa. Excellent. Well--and we'll continue to ask 
Google and Microsoft and all the other--and Rivet those kinds 
of questions, because we don't know how, today, to stop wasting 
your money, because if we knew how, obviously we'd already be 
doing it, right?
    OK, we do--we do know some of the ways we're not doing it.
    Mr. Chaffetz.
    Mr. Chaffetz. Thank you.
    Back in 2009 the Obama administration put forth the Open 
Government Initiative, which the result was the development of 
this data.gov, and one of the comments that Google had made is 
that it wasn't as scrollable as it should be. Can you give me 
your perspective on what's happening or not happening with 
data.gov?
    Mr. Medin. I--again, that's an area where I'm not--I'm not 
really familiar with the core data, so we will--we will come 
back.
    Mr. Chaffetz. Do either of you want to comment on what's 
happening or not happening there.
    Mr. McKee. Sure, Congressman, I'd be happy to comment. I've 
actually been somewhat prolific in blogs in my personal 
appearances talking about data transparency, public records, 
and I've actually been a big proponent of public records in the 
digital age for quite some time. The interesting issue is I 
think all too often we focus on technology and we focus on 
shiny objects and technical solutions to problems, where 
unfortunately, some of the old adages are still true today, 
garbage in, garbage out. All too often we don't take time 
thinking about the data or the information when it's collected, 
and it's really important that we do that.
    I'll speak specifically to the stimulus process. I helped 
to develop and put together a system that we gave away to local 
governments primarily called Stimulus 360, which was 
understanding my own personal experience as a state CIO during 
the Homeland Security cycle, how difficult it is for 
governments to try and deal with Federal money coming down the 
pike quickly.
    And Stimulus 360 was just about putting tools in place so 
governments can collect data efficiently, then the reporting 
process on the other side becomes much, much easier.
    In the case of data.gov, the interesting thing for me 
personally and I've written a lot about, data's nice but if you 
organize it and create information, it becomes meaningful. And 
all too often more data, it's my opinion, is not the answer. In 
fact, more data reminds me of why we created the Paper 
Reduction Act, because we realized the government was producing 
more and more reports and producing more and more paper that 
nobody was reading. I think unfortunately in some cases we're 
producing more and more data for the sake of data, and 
producing less information.
    And I think it would be really important for Congress to 
take----
    Mr. Chaffetz. Is that in contrast or compatible with what 
Mr. Quinlan is saying.
    Mr. McKee. I think it's very much compatible, very 
compatible with what he said. His argument was really about our 
ability to actually organize information and produce it in a 
way that it's meaningful so that it can be organized into 
information. I don't want to put words in his mouth, but I 
would----
    Mr. Quinlan. It is also important to understand and I think 
where we are in strong agreement is that we believe the user 
should be given access to the data so that they can formulate 
the question that they have. So this is building KPIs around 
information, this is building business rules, whether that's on 
government data, on--on--or on company GL data, if you give the 
user the ability to formulate the question, we believe they'll 
get the answer that they want.
    But that only works if all the information is in an open 
standard, so that everybody can access that information 
equally.
    Mr. Chaffetz. Now, how difficult is it to make that sort of 
transition? Because every time we try to, you know, talk to 
some Federal agency it's, oh, we're going to need billions of 
dollars to--how difficult in terms of time and dollars is it to 
make such a transition?
    Mr. McKee. You know, that's a very broad question, how high 
is up. It kind of depends. I think the reality is this is less 
a technical question and more about a process and procedure and 
demeanor of an organization. I think where everybody agrees 
that we're quickly transitioning from a, you know, produced 
paper reports kind of environment to capturing data and 
producing data and allowing people with tools at their disposal 
to organize that data into meaningful information.
    Mr. Chaffetz. So is data.gov, is it worthless.
    Mr. McKee. No.
    Mr. Chaffetz. Is it moving in that direction?
    Mr. McKee. Yes.
    Mr. Chaffetz. It's fast or as rapid or as----
    Mr. McKee. Well, you know what, candidly, Congressman, you 
know, I'm a taxpayer, I'm out here, I'm a private sector 
citizen. It never moves as fast as I would like it to. And I 
think there's opportunities for us to improve, and we have a 
lot of incredibly--my personal experience in government----
    Mr. Chaffetz. What is it not doing right? Let me ask it in 
the negative, then.
    Mr. McKee. For me, I think we're too focused on producing 
data. Part of the--part of the agenda is let's produce more 
data and it's less about producing quality information.
    Mr. Quinlan. I agree to that. Actually, specifically answer 
your question, Congressman Chaffetz, is in the 2000 largest 
publicly traded companies in the United States have converted 
their HTML document based 10-Qs and 10-Ks into a data driven 
XBRL methodology for a subtotal of about $40 million. 2000 
companies now provide that information for about $40 million, 
is the aggregate value of that industry in its current life 
cycle, and that's on an annualized basis.
    So if we can take 2000 disparate companies with many 
disparate accounting systems, all have different accounting 
codes, create a common taxonomy, and ask those companies to 
report against that taxonomy, we have evidence of that cost.
    Now, I am certain I was just handed a--a spreadsheet of 
apparently the reporting system within the U.S. Government 
and----
    Chairman Issa. Yeah, that was for my next round of 
questions.
    Mr. Quinlan. Right. And it's potential to----
    Chairman Issa. It is not complete. I just--it's a small 
page.
    Mr. Quinlan. But if you look at--and--and I think that's 
what's important, these are 2000 separate companies that have 
done that for that cost. So I think that to assume that the 
cost is even close to equal to the benefit is a very short-
sided view of this.
    The amount of money we could save by providing correct 
information greatly outweighs the cost.
    Mr. Chaffetz. In either of your--in any of your perceptions 
and experiences, any Federal agency--we talked a lot about the 
SEC, but above and beyond that, anyone doing it right? Anybody 
who's just the most frustrating Federal agency you can possibly 
imagine? Your own personal experiences.
    Mr. McKee. I would speak out loud----
    Chairman Issa. Name names.
    Mr. Chaffetz. We need targets.
    Mr. McKee. You know, actually, I would like to say that, 
you know, there is a lot of incredibly good work happening, and 
I--you know, that--the move toward transparency I think is 
incredibly important. I think citizens expect it. You know, we 
have access to our investments, our 401(k)'s information. Maybe 
too much information coming at us every day people would argue. 
But I think the Federal Government has made a lot of progress 
moving to a more kind of transparent environment. And I would 
like to see, for me personally, the--the pressure, if you will, 
continue, that the expectations that this is a journey, not a 
destination, continue, and, you know, continuing to see that 
progress move forward.
    How about that for an answer.
    Mr. Quinlan. Right. And I think to specifically answer is 
data.gov, is it the correct solution. I think when you look 
at--the Pony Express was a dramatic increase in the ability for 
people to communicate over what came before it. You know, FedEx 
is a bit better. So I think that we could view data.gov as kind 
of the Pony Express. It's good, it's a start. But there is 
probably a better way to do it.
    Mr. Medin. Understanding that we're still back in the Pony 
Express days, I go back to this round.
    Chairman Issa. Pony Express, you know, that was a ill-
conceived way of delivering mail quickly that only lasted a 
couple of years and killed a lot of ponies.
    Mr. Quinlan. Again, the reason I chose the analogy.
    Chairman Issa. That's the problem is we glorify things 
sometimes that don't work out, but they seemed like a really 
great idea at the time.
    That--that chart I gave you, I gave you for a reason. 
We're--we're looking--obviously a big part of the reason we're 
out here today is to talk about impediments to job creation, 
and I want to get to a couple of them. But when I look inward 
at the government, that reporting matrix, which looked actually 
like healthcare reform, it was so complicated, it--it's a small 
part of what we've analyzed along with Earl Devaney, the 
chairman of the Recovery Board, for how reporting presently 
happens. And then there were three charts that on the other 
page, that are three visions, and they're really the only 
choices government has, other than the one of doing nothing.
    We can try to tie together these various divergent bases 
and reporting and--and hopefully not spend too much money 
asking people nicely from OMB and others to deliver information 
more and more in a--in a usable format. And they'll all tell 
us, as you can imagine, that they have these legacy issues and 
they can't do it.
    The other two are either to simply start taking the data 
today and saying, going forward we're going to do this 
differently, which is a single-point reporting concept, or 
obviously say, look, give us your basis and we're going to put 
them together.
    The reason I put those in front of you is we can have data 
or, if you will, metadata tagging that allows disparate data 
bases to be moved together in some sort of a legitimate way 
where the data can be compiled, but in the day of the cloud, 
shouldn't we look at our 2,500 plus--and what's the actual 
number, guys? Oh, I'm sorry, 2,094 different data centers and 
ask the question of, if they're not--if they're not designed to 
be interoperable, and if we're looking at reporting as not 
designed to be interoperable from the moment that it begins, 
aren't we inevitably going to be having this discussion 10 
years from now?
    Mr. Quinlan. Yes.
    Chairman Issa. And I'll take any nos, if you can figure out 
how we would get there, except by essentially coming up with 
single--a concept of single-point reporting. And when I say 
single-point reporting, they can go to dozens of data bases, 
but one standard setting element so that what--what is put into 
the flow of government reporting is, in fact, thought of from 
the get-go to be interoperable.
    Mr. Quinlan. And I think--so what you just brought up is a 
key and that's creating--the starting point of that is actually 
not technology, but it's creating a governmentwide taxonomy 
that takes those disparate 2,094 technology systems and forces 
them into a single reporting structure.
    That taxonomy just as we've seen in the public sphere will 
inevitably have a certain amount of extensions, some companies 
have extended up to 30 or 40 percent of all the numbers inside 
their financials. What you're going to start to see, though, is 
a group thing that pulls that back, because the last thing that 
a company wants to be is an outlier. And I think that would 
happen in the government as well. You're going to have some 
departments that will play by the rules very well, they will 
fit their reporting structure into that common taxonomy. You're 
going to have other organizations that tend to think that what 
we do is so incredibly special that we have to extend a lot of 
things.
    And when every extension begets 26 questions, you're going 
to start to see those extensions come down. So step one is a 
common taxonomy.
    Then using an open standard to--to meta--to tag with 
metadata against that transparent--against that taxonomy is 
going to allow this--you don't have to go all the way back to 
the data source to correct this if you can get it into that 
open standard.
    Chairman Issa. Other comments.
    Mr. McKee. Yeah. I think I would just add that I really 
appreciate you bringing up the idea of interoperability and 
understanding. I mean, the reality is 20 years ago we made the 
best decisions we could, right, and the reason we implemented 
the technology we could. And the reality is we built large 
bureaucracies and operations around those systems. And the real 
challenging part is less about ripping out a water wheel and 
putting in an electric engine or a new technology, and more 
about reshaping that organization.
    If I could also belabor the Pony Express analogy, the other 
interesting thing that I think you'll find that we're faced 
with, a great example is our data networks. You talked about 
cloud computing. You know, in the Federal Government, in 
particular, we have very often redundant networks. We have data 
and voice networks. And one of them happens to be incredibly 
expensive and--and somewhat dated, and there's a significant 
opportunity for the Federal Government to improve with the 
unified communications and--and things like this, and 
understanding that, you know, what we traditionally bought this 
infrastructure for we've surpassed that ability. And what that 
does for us, ultimately, is allows us to share information and 
data quickly and more efficiently.
    So to your question, you said are we going to have this 
conversation in 10 or 20 years, the answer is yes because we're 
increasingly creating more and more information, and more and 
more data, and certainly will have new challenges to face in 
the future.
    But much like the conversation we had 10 years ago, we 
talked about data dictionaries. And when we created these data 
bases you used the word ``taxonomy.'' I'm a data base guy by my 
engineering background, we talked about data dictionaries and 
using things like FASB and GAAP and other accounting standards 
to create uniform, you know--you know, vocabulary for how we 
described the data information. That problem is going to be 
with us in 10 or 20 years because we're going to have more and 
more data. But we need to continue and we want to ask Congress 
to continue to put the pressure on the Federal Government to 
adopting some of these new technologies, taking redundancies 
out, like my, you know, data and voice networks and looking at, 
you know, how do the new technologies allow us to take and 
create some more efficiencies to remove friction, if you will, 
moving information around the government.
    Chairman Issa. I'll followup with a question to your 
comment. Is there any reason that when we look at GAAP 
accounting and other accounting, that government truly has to 
continue having its own separate accounting system that does 
not port back and forth? Is it a worthwhile goal to say that a 
good accounting core information provided that can be 
remanipulated a hundred different ways is really the goal, so 
that--and my point is this, the SEC does not report its 
operation in the way in which the corporations that it oversees 
report their operations. The only thing we know for sure, 
though, is that the SEC actually does not have the internal 
controls because they failed their own audit and have now 
farmed it out.
    So sort of along that line, when we're looking at source 
information, if you will, reporting that Mr. Quinlan can 
compile three different ways, he can compile it in a typical 
FASB type, you know, OK, we're going to expense everything, 
we're not going to depreciate, we're--we're going to continue--
we're going to recognize revenue differently and so on.
    Or, by simply saying, giving me the other way, couldn't you 
and shouldn't you be able to say, well, where is the Federal 
Government if, in fact, you used GAAP accounting and you say, 
well, wait a second here, what is the asset purchase? What is 
the useful life?
    Obviously in government accounting, they don't even need 
that information. But isn't--isn't it, in a sense, all 
accounting simply rolling up source material and shouldn't we 
go to common source material?
    Mr. McKee. Yeah. So now I'm reaching way back in my 
history, which isn't in my oral testimony and I don't think 
it's on my--my bio, my undergraduate degree's in management 
accounting, before I realized that, you know, running a 10 key 
during tax season was not--was not my future.
    Chairman Issa. You're showing your age talking 10 key.
    Mr. McKee. Well, you know, I was incredibly fortunate as 
well, I could show more of my age that, you know, computers and 
PCs were happening and I spent a lot of time in the computer 
lab and I'm a geek and was exposed to computers and realized, 
you know what, I would rather apply principles to computing and 
some of the business knowledge I have. But anyway, it's neither 
here nor there.
    Chairman Issa. So in other words, you don't have a Friden 
adding machine with all those rows of buttons in your office.
    Mr. McKee. No. And 10 keys are great, you know, and 
calculators are great, but the computing technology, you know, 
clearly here is infinitely more powerful than anything I could 
have imagined.
    But to your question, you know, business principles that 
have been true for thousands of years are still true today. 
Technologies evolve and change, but some of these core 
principles still matter today. And I think your question was 
specifically, shouldn't we have consistent and common ways to 
report and account, and I would say, yes.
    And very often in my own experience as a government CIO and 
a public official, we complicate things significantly through 
the budgeting process. And very often we say things like, well, 
that's how we do it, that's how we do it, government's 
different.
    In many cases there are things that are unique about the 
government. Let's be honest, sometimes the government is in 
businesses that nobody else in their right mind would be in, 
right? People's lives depend very often on what we do and 
that's understandable, so, you know, issues, privacy, security, 
whatever are incredibly important. But when it comes down to 
basic fiscal accounting, I think there's a lot of improvement 
that could happen and a lot of consistency that could be 
created.
    Chairman Issa. And my last question--my last comment's 
going to be, candidly, if government needs to learn the 
difference between spending and investment, they seem to be 
interchangeable in most of the dialog that you hear. Mr. Medin, 
you--you did hit a point that I want to hit one more time. The 
Federal Government ultimately has huge jurisdiction over right-
of-way and can probably clear an awful lot of right-of-way 
directly and through persuasion, you know, because we regulate 
so much. But if the Federal Government did all it could do 
within the Federal powers, what would you suggest for the 
states and the local, in order to clear what's left? You know, 
we--we do not historically take on purely private property, you 
know, the railroads, some of these other areas, we could help 
with a lot, but assuming we do A, and answer what you think we 
should do from a Federal standpoint, and then what would we be 
asked to encourage our brethren at the state and local level to 
do.
    Mr. Medin. Well, Mr. Chairman, as you know, the--the rules 
that the government imposes on Federal projects have all kinds 
of requirements. Congresswoman Eshoo and Senator Klobuchar had 
sponsored a conduit bill, which would have required on all 
Federal highway projects that conduit be in place in those 
projects so that at a later time, fiber could be pulled through 
those at substantially lower cost, 95 percent lower cost.
    Things like that, that basically create holes in 
infrastructure when you're building it, it costs almost nothing 
to install the conduit, and greatly removes the--reduces the 
price for actually installing telecom infrastructure in that 
later on.
    Also, things like siding, all wireless base stations on 
Federal office buildings, how a GSA negotiates with commercial 
leaseholders, right, so that when the GSA is leasing a space in 
a building, does it also have the ability to put--allow third 
parties to put wireless base stations, telecom infrastructure 
on those properties.
    The U.S. Postal Service, right, has a lot of land, a lot of 
various buildings.
    Chairman Issa. 35,000 of them.
    Mr. Medin. Indeed. It would be nice if you could get easy 
ability to put wireless base stations for cellular coverage in 
all of those installations. On the state and--and also, the 
SEC, in particular, controls access for the rules for pole 
attachment and a whole set of other criteria for telecom 
operators.
    They did a recent--their recent preceding was a step in a 
good direction, but it didn't address, really, what it means 
for pure broadband providers who don't fit into narrow Title VI 
or Title II labels to gain access to those poles.
    And in terms of state and local, I sat on the California 
State Broadband Task Force as well as a number of TechNet 
initiatives on broadband and right-of-way. There's a whole host 
of things that you can do. Conduit everywhere is--so that when 
a municipality rips open a road for a project, that they put 
conduit in at that point. That when a telecom operator wants to 
open a road to lay new fiber or new infrastructure, that be 
publicized so that others could actually gain access to that 
same project so you don't have to rip the ground open multiple 
times.
    Streamline processes so that you don't have overlapping 
jurisdictions. The chart that you showed here in terms of the 
Federal day reporting looks a lot like the flow chart for CEQA 
here in California, which is not a good thing.
    Chairman Issa. Actually, this one doesn't have dead end so 
it is different in that sense.
    Mr. Medin. It is different in that way.
    So there's a whole set of things with regards to 
streamlining, putting, you know, limits on timeframe for 
procedures, making clear what the criteria are, and removing 
overlapping jurisdictions that are really important to lower 
the cost of--of right-of-way access, and that improves the 
operators to get access--to make better business cases for 
deployment and investment.
    I would say one other thing on the data part, my experience 
when I was at NASA is that NASA is an interesting agency 
because we take data, in some cases, science data, very 
seriously, and we make that available to scientists, in an 
engineered product. The business operations of the Federal 
agencies have never been thought of as some--something that is 
kind of a main point and not a side point. And if you have 
difficulty in getting good reporting data at your level, what 
are--how--how opaque is that data inside the agency itself? 
Because if you don't have transparency inside the agency, how 
can people propose to improve processes?
    You know, inside Google, we do a lot in terms of making our 
business metrics widely accessed inside of the company so that 
we can get suggestions about how to improve those processes.
    If those--if data sets of business processes where expenses 
are--are being allocated, etc., are not transparent inside an 
agency, how can that agency make its own process better?
    You as a business owner, certainly, how would you like it, 
be able to make decisions on where to invest, where to 
distribute if you couldn't get--if people inside your company 
didn't have good access to the GL, and know where people were 
stiffing you, where sales were going? The government doesn't 
think of these processes in a strategic way, and that's the 
real problem, in my opinion.
    Chairman Issa. I said it was the last comment but I will 
followup one for the record. My--my old company sold to Circuit 
City and Best Buy and Walmart too, but the difference between 
Circuit City and Best Buy--and now that Circuit City is gone 
it's pretty easy to tell the story. At Circuit City, it was 
against the rules to show actually the vendor what the 
inventory on hand was. We would get our orders and they would 
be added and subtracted and held and expedited, but you'd have 
to go into Richmond and you'd have to say, can you kind of show 
me on a piece--on a printout, a paper printout, and they would 
kind of show you where the inventories were by warehouse and 
region and you'd write it down feverishly, and sometimes they'd 
give you a little more information but that was about it.
    At Best Buy, and for that matter, Walmart, I could tell, or 
people working for me daily could tell at any time how many 
units were in each store, how many were in the warehouses, 
where they were in the shipping process, and, you know, 
literally we could figure out whether one store was selling and 
the store next to it wasn't selling. We could deploy people in 
to find out why they weren't selling, perhaps they were sitting 
in the warehouse and never been put out on the shelves. Best 
Buy's here today, Circuit City's gone.
    Mr. Chaffetz.
    Mr. Chaffetz. Just to followup on what Chairman Issa was 
saying. I concur, we have this challenge, governmentwide, 
because I think there are a lot of agencies that don't want to 
be held accountable, they don't want somebody looking over 
their shoulder, they won't provide the very basic data.
    You would think you could go to certain agencies and just 
be able to extract data. You go to USAID and ask them, tell me 
the projects where we spent these billions of dollars. They 
can't even give you an Excel spreadsheet to even show you 
what--what projects they're even working on.
    And then you compound that, you look at, for instance, at 
the Patent Office and the lack of data and information that 
they have there, and it's--it's stunning, because this is what 
becomes a competitive advantage for the United States of 
America.
    Let me go a little bit further, because I just--I need to 
understand the--the limitations on the technology itself. 
Because it strikes me that Google's going to great lengths to 
try to work on broadband and even lay fiber and whatnot, but 
what are the limitations on wireless and satellite and those 
types of communication? Why so much effort on actually laying 
actual cable as opposed to----
    Mr. Medin. Sure.
    Mr. Chaffetz.--expanding it? I mean, wireless is--what are 
the limitations there.
    Mr. Medin. Sure.
    It's important to recognize that the wireless networks 
provide connectivity to an underlying infrastructure that 
connects--that trunks all these systems together. Today fiber 
can carry enormous amounts of data, far more than wireless can. 
So basically wireless is an extension of the fiber footprint, 
and so you think about it as an integrated system.
    In some cases, you know, it's a cost benefit ratio. If I 
can get spectrum at a low enough price or a wide enough amount, 
I can generate an access capacity of, say, 20 megabits or 40 
megabits, etc. But the fiber itself can carry terabytes of 
data. So the issue is, fundamentally, how--how--how close can 
you get to the fiber? Because the fiber is the thing that 
drives it.
    Mr. Chaffetz. What are the limits in the bandwidth? I mean, 
do you see us bumping up against these--what has been allocated 
out in the public?
    Mr. Medin. Well, this is a long complex story. You know, in 
the United States, there's government spectrum and there's 
commercial spectrum. Two different agencies regulate these. 
They have very different policies.
    Spectrum has been allocated in a number of ways by user, by 
type of use, so you have PMRS versus CMRS----
    Mr. Chaffetz. I guess I'm trying to get to the bottom line.
    Mr. Medin. I'm sorry.
    Mr. Chaffetz. Are we not allocating enough spectrum space, 
I guess is part of my question.
    Mr. Medin. I think in general--sorry, simple answer is yes, 
more commercial spectrum needs to be out there, more unlicensed 
spectrum needs to be out there. There is a ton of spectrum that 
is assigned but not been used.
    Mr. Chaffetz. Can you quantify that? Can you--we have this 
much--I'm looking for some numbers----
    Mr. Medin. Sure.
    Mr. Chaffetz.--ratios and percentages to help me 
understand.
    Mr. Medin. Sure.
    I think total amount of commercial allocated spectrum, 
ballpark, is something in the order of 270 megahertz has been 
allocated for commercial mobile radio service. If you compare 
that to the amount of spectrum allocated for--for broadcast, 
TV, which is, you know, a current discussion, it's about the 
same, right? That is to say, the total amount of broadcast 
spectrum is about the same amount that we have allocated to 
CMRS.
    And so there's large pockets of this. Government is 
probably the largest sector in terms of the total amount of 
spectrum it holds in its inventory. A lot of that is important, 
right? You have radars, you have air to ground communications, 
you have military requirements, so it's not to say that, well, 
you can reclaim spectrum that's in use of this radar, right?
    But I think if you look at the nature of the spectrum 
allocation process, we have speculators, we have people who 
hold spectrum but don't build on it, we have--all of this 
spectrum is tied up in ways that doesn't allow it to be used by 
carriers and consumers unlicensed----
    Mr. Chaffetz. Do you see us now at the current usage rates 
across the--across the country that we're bumping up against 
these ceilings? Are you--are you advocating that we expand 
those ceilings and look at reallocating the different channels 
by which we use it.
    Mr. Medin. I believe that if you look at the timeframe it 
takes for the government to take action on spectrum, it's 
usually on the order of a decade or so, right?
    So if--if I basically--if you're going to force me to say 
we can't make decisions on spectrum quicker than a decade, 
which goes back to the earlier point I made, that, yeah, we're 
in a--in a big problem, right? Because----
    Mr. Chaffetz. So you think we're running out of spectrum in 
the next 10 years, is that it.
    Mr. Medin. I think--I think if you look at growth rates and 
data, we need more spectrum, we need the ability to--to build 
more base stations easily, because spectrum is not--you can 
actually get more capacity out of spectrum by taking the 
spectrum that's used by one base station and actually splitting 
that into several base stations.
    Also, the issue about offloading spectrum through--
offloading wireless traffic through femtocells and unlicensed 
communications, today, right, if you look at how much data is 
offloaded on WiFi from the commercial networks, right, our--the 
costs that consumers would have to bear by--by having all of 
that traffic be carried on commercial license spectrum would--
would--it would just not be in--in a reasonable way.
    So it turns out it's a combination of things that you need. 
There's no silver bullet, right? And one of the challenges is, 
how do you look at how spectrum is used, what requirements? You 
know, spectrum is chopped up into different use rules. I can 
use broadcast spectrum for one thing, I can use commercial 
mobile spectrum for another set of uses. Private spectrum PMRS 
cannot be used for--for mobile, so there's all these rules that 
apply to different kinds of spectrum that prevents it from 
being used from one purpose or another.
    Mr. Chaffetz. Thank you.
    Do either of you others want to comment on that?
    Mr. Quinlan. I'm good on spectrum.
    Mr. McKee. I'll just briefly say we've been doing a lot of 
work around white spaces and other things. We'd be happy to 
followup with you and staff on some kind of innovative things. 
I'm an optimist and believe that our technologies will advance 
fairly rapidly.
    But one of the points that I would say is--is hard line and 
wireless both matter, it's not an answer of one or the other. I 
am very confident that indeed we will be bumping up against 
capacity issues. We currently are and will continue to be, 
because our desire for data and information is continuing to 
grow. Moore's law, Metcalfe's law is still happening, so I 
think I would answer your question that way, that we need to 
continue to be very, very aggressive about capacity issues in 
our ability to move information. Our future competitiveness 
depends upon it.
    Mr. Chaffetz. And then maybe if each of you could just very 
quickly touch on cloud computing because obviously the private 
sector is still starting to come to grips with what this means, 
and the Federal Government is trying to come to grips with what 
it means. We--the Federal Government seems to operate in silos. 
Everybody has to have their own network, their own security, 
their own--and I think there's a great reluctance and a human 
nature reluctance to want to move toward the cloud.
    Can you touch on the positives and negatives on what the--
what the challenges that you see, not only from the government, 
but for the private sector? And we'll just go swiftly down the 
road, maybe we can start with you, Mr. McKee.
    Mr. McKee. Sure.
    I mean, I'll go back to I think some of the chairman's 
opening statements. He didn't use the words ``shiny object,'' 
but I think we do a big job in the computing industry of 
developing new technologies and often framing them. I'm very 
pragmatic. Cloud computing isn't something that happened and 
fell from the sky recently. It's been much more of an evolution 
than a revolution. In fact, cloud computing, I would just frame 
as network enabled services.
    What has changed is the depth of our networks and the 
quality of the software and the reliability that's allowed us 
to continue to spread out and move the edge farther and farther 
out. I think that will continue to happen. And we'll urge 
Congress, there's a lot of data in my written testimony, about 
specific policies and issues we think Congress should continue 
to look at, to accelerate an adoption of cloud computing 
technologies.
    Mr. Medin. I would agree with--with that. I would also say 
that if you look at the marketplace, entrepreneurs are some of 
the--sorry, entrepreneurs are some of the early adopters of 
cloud computing technology, because it allows them to scale 
really rapidly, and without a large scale investment initially. 
So if you look at here in the Valley how many startups are 
using cloud computing as their platform simply because their 
business model would not work without it. And I think one of 
the interesting questions is, are there opportunities where the 
traditional model in the government for solving data processing 
elements, you wouldn't even bother trying to do it in the old 
way, but would be empowered with this new way. That allows 
government to move faster, quicker, with more transparency, 
because the cloud also has at least the ability to break down 
some of these silos in--in ways that these vertically 
integrated platforms do not.
    Mr. Quinlan. So as an entrepreneur that does gain great 
benefit from the cloud, we are a stat model that allows our 
1,250 clients to keep their prerelease earnings information on 
a very secure network. So we live, eat and breathe this every 
day, and I feel that certainly that the government should 
explore the opportunity and benefits that come from cloud 
computing.
    These gentlemen are in the world to provide the service 
that we use, for which I thank you very much. What we believe, 
though, is cloud computing is important, so is the information 
that resides on that cloud computing. And we will constantly 
push to ensure that data is accessible to each and all. And one 
of the things that we live by is that we believe that data is--
is--needs to be democratic to all users. And especially that is 
why we want to continue to push the SEC to ensure that all 
public filings, not just Qs and Ks are available in an XBRL 
format, so that all investors have the ability to access that 
information.
    Mr. Chaffetz. Thank you.
    One last thing I have, Chairman, and I'll be done with my 
questions, maybe we can go back in reverse order here.
    All of this comes back and one of the integrated questions 
here is obviously cyber security. I don't know if you're able 
to quantify this, but one of the challenges we have in the 
Federal Government, everybody operating on these different 
silos, there tends to be all these different operating entities 
and every time you go to--you know, hear about an appropriation 
and massive money for cyber security, nobody quite knows 
exactly what that means. We also looked at which agencies 
should be engaged and involved in the enforcement and the 
international nature of the cyber security and how we fight 
back against that.
    I don't know if you have any comments or any perspective on 
how bad and how difficult this situation is, because the access 
to that data, surreptitious access to this data is obviously a 
massive issue for the Federal Government.
    Mr. Quinlan. It is a very real threat. It is something that 
as we look at the future of conflict in the world, 
traditionally has been armies marching across fields, and there 
will be battles over I think water and over cyber security in 
the future that make--that will be new when you look at past 
history.
    You know, as a company, it is incredibly important to us 
because of the information that we maintain. And so I'm going 
to leave my comment at that, because I don't want to raise any 
flags.
    Mr. Medin. I would say one of the challenges is if the 
agency's business processes have really not been thought of in 
a strategic way, it is very complicated to retrofit security in 
these kind of models. Security is really best thought of as 
when you're building a system, right? And the problem is there 
are--the value of that information to enemies of the United 
States has gone up over time, but the architecture of the 
system may not have recognized that.
    And I think that's a real challenge, because it goes back 
to it's not about, well, spend X dollars on this project and it 
will fix your problem, right? It's really about thinking about 
information in a strategic way, thinking about systems in a 
strategic way.
    And as long as an agency does not think about it that way, 
you're going to have vulnerabilities. The same way, in fact, 
some of this--if you can't get reporting data out of the 
system, one of the interesting questions is, does that mean 
that the--that the access to that information is so esoteric, 
right, that nobody can protect it effectively either, or can 
you say it's protected.
    I mean, these are really interesting challenges when you 
architect IT systems that I think need to be thought of.
    Mr. McKee. I'll just say briefly that you're absolutely 
right, in today's world that the reality is with the growth of 
networks and information, that the attack vectors have 
increased significantly, and there are a whole new level. I 
would encourage you and Congress to continue to look at ways to 
encourage public, private partnerships and the ways for 
different entities to work together to share information. The 
government security programs is a great example. There's a 
really great example out in New York, a gentleman named Will 
Pelgrin did the Multi-State ISAC where they were sharing 
computer incident and response.
    Part of the challenge with cyber security is our ability to 
respond quickly, and when we see issues happening and being 
able to share information.
    So I would encourage Congress, and there's quite a bit of 
detail in my written testimony, and we'd be happy to followup 
with additional information on how we can ensure that we secure 
these absolutely critical assets.
    Mr. Chaffetz. Thank you.
    Chairman Issa. Thank you.
    I'm going to do one quick followup as a member of Energy 
and Commerce on leave. I can't help but--and I know you'll 
followup for the record, but are you proposing obviously 
freeing up bandwidth, but one thing that I've always been 
worried about is that if we give more bandwidth--let me 
rephrase that. If we sell more bandwidth, as we so often do, 
what we essentially do is we--we get hooked on it as a revenue 
source and we lose track of--first of all, the real goal is--is 
the public good. It's not the temporary return on--on some 
asset that is only intangibly belonging to the Federal 
Government.
    But the whole idea of going to microcell technology, the--
and just quickly, you all know that most of the major carriers 
all have microcells that basically exist so that you could take 
your--your Internet wired backbone and when you're in a place 
that doesn't have a cell and you're dissatisfied, you can have 
your--your den have one of these units. And they're in their 
infancy and they're--they're one of the most crippled product 
I've ever seen.
    They make them so they don't work for your whole house or 
even for your whole den, if you have a 24-by-24 den, and yet it 
would seem like this is ultimately one of the things that we 
probably ought to have is, if you will, a universal microcell-
type concept that is small, can be smaller if you come into 
signal so that it--it, in fact, is a smart microcell, but that, 
in fact, if I go out to Wyoming and there's a signal, or I go 
out to Wyoming and there isn't a signal, why wouldn't I want to 
take this already allocated bandwidth that exists for the 
purpose of cellular data and--and voice and get it on to the 
land as soon as possible? If you will, isn't it a public 
service if we make sure that the FCC promotes these products so 
that consumers get off of everyone else's air waves, even 
though it's leased air waves as soon as possible.
    And if you take that kind of concept and you spread it 
throughout a lot of technology, wouldn't--wouldn't we very 
quickly make the same amount of bandwidth go further?
    Mr. Medin.
    Mr. Medin. You're right. Physics, in fact, is on your side. 
If you look at many of the analysis, they say data growth will 
go up by a factor of 30, right? Well, no one is proposing that 
spectrum can grow by a factor of 30. So you have to do this 
kind of cellularization, taking cells and offloading traffic, 
you know, at--in smaller and finer areas. That's the only way 
to grow the total capacity of the system.
    So you're exactly right about femtocells and microcell 
devices. That, by the way, is another reason why unlicensed is 
really important. One of the things Google as a company is very 
concerned about is in this move to reallocate spectrum, it's 
being propelled almost with a giddiness about revenue that 
makes policy a second fiddle, which the law actually says--the 
statutes actually say, you're not allowed to use revenue 
considerations in how you set spectrum policy.
    But yet----
    Chairman Issa. If Congress should just obey its own laws.
    Mr. Medin. Well, there is that.
    But I think that's part of the issue. If you look at what 
WiFi has done in terms of offloading traffic, your smart phone 
when you go into your house, it's now using the WiFi network 
for its data and not the cellular system. If that wasn't there, 
the kind of innovation that we would see in terms of smart 
phones and the Internet and access would really be dwarfed. So 
you have to--the physics drives you. We cannot solve this 
problem just by allocating more spectrum. It is fundamentally 
about creating smaller and smaller pockets of wireless, and 
unlicensed is a huge driver of that, so I think that's exactly 
right.
    And I just want to say, optimizing for revenue is not 
optimizing for public interest benefit to consumers. And that's 
a big challenge in the way the spectrum process is run today.
    Chairman Issa. Thank you.
    You know, we came here really as part of the committee's 
activities on Americanjobcreators.com. We're going to have--
staff has a couple of questions, I believe, for you, but you've 
been helpful here today. Very clearly, we're looking for places 
in which government is in the way of the American job creator 
and getting the job done, and you've given us some wonderful 
starting points.
    One of the challenges is that Jason and I are going to have 
to take this back, report it to the Members, who sit on a lot 
of other committees, because as you can imagine, a lot of what 
needs to be done needs to be done by ENC, the tax committees 
and so on, and particularly the comments on H-1B and where we 
need to go on--on real technology innovators, making sure we 
gather as many as we can.
    And with that, do you have some questions?
    Mr. Hollister. Thank you, sir.
    Mr. Issa. Go--go ahead and introduce yourself.
    Mr. Hollister. Hudson Hollister, counsel to the majority 
staff where I've worked on data.
    Chairman Issa. XBRL.
    Mr. Hollister. XBRL is my job. I have a couple of followup 
questions just for the record about data transparency.
    Mr. Quinlan, you pointed out in your testimony that the 
SEC's XBRL mandate is for now the best example we have of 
imposing data structure on a really complex and diverse set of 
financial data, in this case, corporate financial statements in 
the U.S. GAAP.
    What has the SEC's XBRL mandate done for the quality of the 
market's analysis of corporate financial statements so far? And 
if the mandate matures, what can we expect it will do for the 
quality of the market's analysis, financial statements in the 
future?
    Mr. Quinlan. Great. So we--we break the XBRL mandate into 
essentially two macro segments, creation and consumption. On 
the creation side, it is taking all of the information provided 
in Qs and Ks today and turning that into an open standard or 
XBRL data. That is the 1,250 clients that we have today. That's 
what we're doing, we're creating that information. The mandate 
has been out now for about 18 months. You have about one-third 
of all publicly traded companies providing information.
    Just recently we were getting into the actual notes, rather 
than just the front facing financial, so the data is extremely 
new.
    The amount of data available is going to increase about 
five fold from now to Q3 of this year. When that happens, as 
you get two things, much more data, and then much mature data 
from the initial Fortune 500 companies, we expect the 
consumption side of the business--now that the creation side of 
the business has had an opportunity to mature, the consumption 
side, we believe, will take off dramatically. There have been 
some of the largest data gathering companies in the world have 
been reaching out to Rivet recently, to understand how to take 
this metadata and start to incorporate it directly into their 
systems. So there is an increased inertia, and when I say 
increased inertia, maybe we got one phone call a quarter three-
quarters ago, now we're getting many a week.
    So this--I believe within the next 12 months the 
consumption business will go through a dramatic revolution and 
how people consume this data. It is just at the forefront 
today.
    Mr. Hollister. There's a bit of a philosophical difference 
about how the government should collect financial information 
and how the government should seek to prevent a future 
financial crisis.
    What impact on the market's ability to avoid a future 
financial crisis do you think broad based collection of 
standardized financial data might have if it were mandated?
    Mr. Quinlan. So there was a--a fairly well-read book out 
right now called The Big Short, and in The Big Short there was 
a story about a--and I apologize because I can't remember his 
name, a trader based here in Silicon Valley, actually, who did 
the ridiculous thing of sitting down and reading the 
prospectuses of these CEOs, and literally these things had been 
written--you know, this information had been created and these 
things have been written by people, but nobody actually sat 
down and read it.
    So what this individual did is he sat down and he read it 
and he realized when he read it that there was really not a--
that these CEOs were junk. And the information, by the way, was 
available to everybody. It was just this one individual that 
sat down and read these pages upon pages upon pages of endless 
information, to realize what was inside these.
    What we believe is if you take what one exceptional human 
being did and provide that information in a way where one 
doesn't need to be quite that exceptional or patient, to sit 
down and read these endless prospectuses, that information will 
make--it will never eliminate the ability of human beings to 
destroy a good system, but it will certainly make it at least 
more visible, and, therefore, less likely that the damage is as 
widespread.
    So if you were able to go in and tag everything inside the 
CDO with metadata to show exactly what types of mortgages--if 
you could within a click of a button open up a CDO and see 
exactly the credit scores of every individual inside that, when 
it's parsed up in many given forms and fashions, I think that 
the pricing of that would be much more accurate to its future 
marketability rather than hope.
    So hope is not a good strategy, and I think that 
transparency takes hope out of the equation.
    Mr. Hollister. Thanks.
    And one other question for the whole panel. We've talked a 
little bit about the impact for the quality of analysis on data 
structure of financial statements, can we extrapolate that to 
what might happen if Congress were to mandate data structure 
for Federal spending?
    Mr. Quinlan. Absolutely.
    To--and I want to, again, agree that data is--more data is 
not just a solution, it's data in a way that people can 
actually use it. You know, if we think back to the 1980's, I 
remember there was--wasn't it an $800 toilet seat or $800 
wrench, there was some big----
    Chairman Issa. I do believe it was a coffee pot.
    Mr. Quinlan. Was it a coffee pot? I apologize.
    Chairman Issa. There also was a wrench, yes, government 
accounting at work.
    Mr. Quinlan. Right. And so when you--when that 
information--when that information starts to come out, it 
creates embarrassments, and embarrassments create people--I 
don't think that--nobody was intentionally buying an $800 
wrench. I think people just weren't paying attention to the 
invoices because they didn't have the information until after-
the-fact. So I think that we can at the Federal level create a 
standard that allows that information to be accessible so that 
decisionmakers, before they make the decision, understand what 
they're deciding. I think by and large, the nature of those in 
the Federal Government is to do the best that they can, but 
here comes the important part, with the information that they 
have.
    And so I think we need to provide them the information 
prior to making decisions. I was actually informed today of a 
process in the Federal Government where there is a performance 
indicator that is required by Congress 8 months before cabinets 
actually put together their budget, but the results aren't 
released until 8 months after the budget cycle for that 
previous year is complete. So, again, it's not that the 
performance metrics are a bad idea, but getting the report card 
after you've already thrown your birthday party based on what 
your grades were is not a good idea.
    So----
    Chairman Issa. Thank you.
    Mr. Quinn.
    Mr. Quinn. Thank you, Chairman Issa, for this unique 
courtesy. I really appreciate it.
    My name is Brian Quinn. I'm counsel to the Democratic staff 
of the Committee on Oversight and Government Reform. 
Unfortunately our Democratic members of the committee could not 
make it today, but on behalf of those members I'd like to thank 
the witnesses for appearing. Thank you, Chairman Issa, for 
holding this important field hearing.
    We believe this is a very important issue and look forward 
to a continuing dialog with the high-tech industry on how 
Federal policies and regulations can support job growth and 
global competitiveness.
    We are also interested in seeing how the emerging 
technologies can enhance the transparency and the 
accountability of the Federal Government.
    I have no questions at this time. But again, thank you for 
this courtesy and for appearing today at this field hearing.
    Chairman Issa. Thank you.
    And as we close, I--I will tell the story, since--Senator 
Boxer was one of the people who was very big on the coffee pot, 
the wrench, the mug and so on. The interesting thing is that it 
was government accounting in some cases, because if you only 
want 10 coffee pots for 10 aircraft, and you want it designed 
to work on that aircraft and you want it to meet FAA 
requirements, and you certainly don't want it to explode in 
decompression, it could cost a few nonrecurring costs. And when 
you burden the nonrecurring costs into 10 devices, even if the 
device was free, you now have $8,000 worth of burden.
    And it's one of the challenges that--Mr. McKee, I really 
appreciated your response. We need to have a level of 
transparency so that we can determine whether something is a 
reasonable value based on the nature of the beast.
    If every product that the government bought or didn't buy, 
and particularly when we look at a Cox product versus the 
development of our own products, if we really looked at what 
the true cost was, we would obviously get to a very different 
analysis, time and time again.
    So I want to thank all of you for helping not only talk to 
us about where impediments of job creation lie, but also some 
of the necessary reforms in the government that will prevent 
the next global meltdown by simply having those imperfections--
unreported imperfections in the market, be well reported and 
well understood, well before somebody who assures the market is 
proven right.
    So with that, I want to thank you for your participation. 
The record will remain open so that if you have thoughts and 
you want to revise or extend in some of the items that you said 
you'd provide for the record, would be made available.
    And in this case we'll make it 2 weeks, since we're on 
district work period and that will work very well with the end 
of these--these hearings.
    Thank you, we stand adjourned.
    Thank you.
    [Whereupon, at 10:34 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
